 U.S. Department of Agriculture
  Office of Inspector General
      Great Plains Region
          Audit Report



           Farm Service Agency
Crop Year 2000 Marketing Assistance Loans
      and Loan Deficiency Payments




                   Report No.
                   03601-19-KC
                   September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL


                                    Washington D.C. 20250




DATE:        September 30, 2003

REPLY TO
ATTN OF:     03601-19-KC

SUBJECT:     Crop Year 2000 Marketing Assistance Loans and Loan Deficiency
             Payments

TO:          James R. Little
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations and Review Analysis Staff


SUMMARY:

The primary objectives of our review were to assess the Farm Service Agency’s (FSA)
administration of crop year 2000 Marketing Assistance Loans (MAL) and Loan
Deficiency Payment (LDP) activities and determine the propriety of program benefits
received by producers. This included an assessment as to the sufficiency of program
controls designed to ensure producer eligibility and the reasonableness of 2000 crop
year MAL and LDP quantities and disbursements. Also, we attempted to assess the
effectiveness of the corrective actions taken for selected recommendations made in our
prior audit of 1998 crop year LDP activities. The results of our review indicated that the
county offices visited were generally administering the programs in accordance with
program regulations and procedures and we found that FSA was still in the process of
implementing the corrective actions for the conditions reported in the prior audit report.
Therefore, we terminated our work after completing reviews of 67 producers in
3 judgmentally selected States.

BACKGROUND:

Sections 131 through 136 of the Federal Agriculture Improvement and Reform Act of
1996 required administration of a nonrecourse MAL and LDP program on a total of
16 commodities for the 1996 through 2002 crop years. The primary objectives of the
MAL and LDP provisions are to improve and stabilize farm income, promote a better
balance of supply and demand for various agricultural commodities, and assist
producers in the orderly marketing of such commodities. This includes minimizing the
forfeiture of price support commodities to the Commodity Credit Corporation (CCC).
James R. Little                                                                      2


The FSA has responsibility for the MAL and LDP program administration. The MAL
provisions provide producers with interim financing on eligible production while
facilitating the orderly marketing of such commodities throughout the year instead of at
harvest time when prices tend to be depressed. Producers approved for nonrecourse
loans on eligible commodities may either (1) deliver the loan collateral to CCC on or
before the loan maturity date or (2) repay the outstanding loan balance at the lesser of
the loan principal plus interest or the posted county price (PCP) on the date of
repayment. The PCP is determined on a daily basis and is designed to reflect the
actual cash prices offered by local warehouses. In cases where the loan repayment
rate exceeds the PCP, the difference is considered a marketing loan gain to the
producer. Recourse loans are available to producers who harvest commodities that are
not eligible for MAL or LDP benefits on such commodities.

For each eligible commodity, producers have the option of receiving LDP’s in lieu of
MAL’s. The LDP rate represents the difference between the county loan rate for the
applicable commodity and the associated PCP on (1) the date of request for LDP
benefits or (2) the delivery date for commodities delivered directly from the field to a
processor, buyer, or warehouse (field direct).

In order to receive MAL or LDP benefits, producers must meet basic eligibility
requirements, including compliance with annual program requirements and sharing in
the risk of producing the commodity. This includes retaining beneficial interests in the
commodity at the time of the request for LDP benefits. Beneficial interest is defined as
having (1) control of the commodity, (2) risk of loss, and (3) title to the commodity.
County office employees are required to review any associated sales contracts or
leases in cases where it appears that a producer may have lost beneficial interest.

Each county committee (COC) is responsible for establishing an average yield for each
applicable commodity based on local crop and weather conditions. COC’s are also
responsible for determining the reasonableness of yields that appear to exceed the
associated county average yields. The COC review of questionable yields represents a
primary program control.

The 2000 crop year LDP and marketing loan gain benefits totaled about $6.2 billion and
$1.3 billion, respectively.

In our prior audit of 1998 LDP activities, (Audit Report No. 03601-17-KC, dated
September 29, 2000), we concluded that FSA needed to take action to enhance or fully
implement existing program controls. We found that the county established yields were
based on COC knowledge of crop and weather conditions rather than historical yield
data. This process did not always result in county established yields reflecting the
actual yields produced for the crop. Also, some COC’s used other methods to establish
this yield. Other COC’s established the yields so high that no reviews of producer
James R. Little                                                                    3


requests would need to be performed. Also, reviews that were to be conducted by
COC’s as a program control were not always applied or were not effectively applied.

We also reported that FSA personnel did not conduct timely spot-checks of farm-stored
loans and/or LDP’s in 6 of 18 counties reviewed. High volumes of requests and
complicated program requirements contributed to focusing on the disbursement of
payments. Also, one county improperly allowed producers to receive higher cotton
LDP’s based on a misinterpretation of procedure. As a result, we identified erroneous
LDP and price support loan disbursements of about $330,000 to 106 (32 percent) of the
336 producers included in our prior review.

OBJECTIVES:

Our audit objectives were to assess FSA’s administration of the 2000 crop year MAL
and LDP provisions and determine the propriety of program benefits received by
producers. This included an assessment as to the sufficiency of program controls in
place to ensure producer eligibility and reasonableness of associated MAL and LDP
quantities and disbursements. We also attempted to determine the effectiveness of
actions taken to address selected recommendations contained in our prior Audit Report
No. 03601-17-KC, 1998 Crop Loan Deficiency Payment Activities, dated
September 29, 2000. The recommendations pertained to reviews of COC yield
determinations to assure reasonableness, tests to identify production quantities
exceeding county established yields that could be reasonably produced, documentation
of the required spot-checks on farm-stored grain, and second-party reviews of MAL and
LDP requests and payment data.

SCOPE AND METHODOLOGY:

The review included visits to the FSA national office in Washington, D.C., and a
judgmental sample of FSA State and county offices (CO). The States and counties
were selected for review based on input from agency officials and the volume of
program activity. The States selected included Arkansas, Nebraska, and South
Carolina. The counties selected for review included Ashley and Chicot in Arkansas;
Perkins and Saline in Nebraska; and Clarendon and Orangeburg in South Carolina. At
CO’s visited, we reviewed supporting program records for a judgmental sample of 67 of
3,625 producers who had received at least one LDP or MAL at the time of our visit. The
producers were generally selected for review based on the type of request, crop,
quantity, and benefit amounts involved. In Nebraska, we also used exception listings
generated by an agency software application (CTY 100) to help select producers for
review. We included county office employees and county committee members in our
sample where deemed appropriate.
James R. Little                                                                          4


We conducted our review by gaining an understanding of applicable regulations,
policies, procedures, manuals, and instructions and performed the following:

      •   Interviewed FSA officials at the national, State, and local field office levels to
          identify applicable laws, regulations, and program policies and procedures for
          administering MAL and LDP programs and to identify the actions taken on
          weaknesses identified during our prior review of the 1998 crop year MAL and
          LDP programs.

      •   Reviewed our prior audit findings and recommendations pertaining to the
          administration and operations of MAL and LDP programs.

At CO’s, we reviewed MAL and LDP records to determine whether producers,
quantities, and payments met eligibility and program requirements. We also interviewed
producers, as needed, to obtain additional information regarding their eligibility,
quantities and payments.

We conducted the audit in accordance with Government Auditing Standards.

REVIEW RESULTS:

Our review in the three cited States indicated that CO’s visited were generally
administering the programs in accordance within the regulations and procedures
established by FSA. Based on our results, we terminated our review of the 2000 crop
year MAL and LDP after completing analyses of 67 judgmentally selected producers.
Our review disclosed the existence of two conditions for 2000 crop year LDP’s that were
similar to those identified during our prior audit of 1998 crop year activities. For
example, we found 12 instances where reasonableness checks of COC yield
determinations were not performed as required. Also, duplicate production evidence
was not detected for two cases prior to the disbursement of program benefits.
However, we concluded from our review results that FSA had not completed
implementation of its planned corrective actions for the recommendations addressing
these conditions contained in the prior report and sufficient time had not elapsed to
enable us to assess the effectiveness of corrective actions taken or contemplated at
that time.

The prior audit report contained a total of 12 audit recommendations. We reached
management decision on 10 of the 12 recommendations at the time of report release on
September 29, 2000. Management decisions for the remaining two recommendations
were reached on March 16, 2001, and May 3, 2001, respectively. FSA personnel
advised us that none of the agreed-to corrective actions had been implemented at the
time the review was initiated. This was further confirmed through a review of
correspondence between FSA and the Office of the Chief Financial Officer. The
James R. Little                                                                       5


correspondence showed that only one of the recommendations (No. 12) was
considered closed as of January 30, 2002. As of the date of this memorandum,
corrective actions are in process for two remaining recommendations
(Recommendations Nos. 5 and 6).

Nothing came to our attention during this review that caused us to conclude that the
corrective actions taken or planned would not adequately address the prior audit
recommendations. We may use the results of this assessment as a basis for planning
and performing future reviews of FSA MAL and LDP activities. Therefore, we are not
making any further audit recommendations and no further action or reply is required.

Statements of Conditions, which provided details on each discrepancy identified during
the review, were issued to the State Executive Directors in Nebraska and South
Carolina.    We reported that CO’s did not always refer cases to COC’s for
reasonableness determinations even though the LDP benefits were based on yields that
appeared to be excessive, comply with requirements for handling facsimile LDP
requests, and properly process a correction for an erroneous payment they identified.
We also found overstated benefit amounts due to duplicate production evidence and the
use of an incorrect LDP rate. The conditions identified that required CO action were
discussed with FSA officials prior to leaving the audit locations and we asked each State
office to provide a written response to the Statement of Conditions. The State offices
reported to us during the review that appropriate corrective actions were completed.
The review in Arkansas did not disclose areas where action was needed at either the
State or county level.

If you have any questions, please contact me at 720-6945, or have a member of your
staff contact Ernest M. Hayashi, Director, Farm and Foreign Agricultural Division, at
720-2887.

We appreciate the courtesies and cooperation extended to us during the audit.

/s/


RICHARD D. LONG
Assistant Inspector General
 for Audit
Informational copies of this report have been distributed to:

Administrator, FSA                                      (3)
Agency Liaison Officer, FSA                             (3)
General Accounting Office                       (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division       (1)
Office of Management and Budget                         (1)
